HHS/OIG-Audit--"Retroactive Claim for Title IV-A Emergency Assistance Submitted by the Missouri Department of Social Services, (A-07-95-01012)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Retroactive Claim for Title IV-A Emergency Assistance Submitted by the
Missouri Department of Social Services," (A-07-95-01012)
October 25, 1995
Complete Text of Report is available in PDF format
(32 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the allowability of a prior quarter claim totaling
$2,529,894 in Federal financial participation (FFP) Submitted by the Missouri
Department of Social Services (DSS) for reimbursement under the Title IV-A Emergency
Assistance Program (EA). The report covered retroactive costs for the period
October 1, 1992 through June 30, 1994. We found that the retroactive claim for
$2,529,894 in FFP was documented and allowable for reimbursement.